                                               OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM




This investigation of an NSF award' was opened pursuant to a proactive review of cost sharing.
The investigation, which included a review of program records and financial documents, along
with request for information from a ~ n i v e r s i t gresulted
                                                       ,        in finding that the University needs to
improve cost share monitoring of its sub-recipients. There was no evidence found of fraud or
wrongdoing. Therefore, no hrther investigative efforts are required in this case.

Accordingly, this case is closed.
